April 24, 2002

JOHN M. NOLAN
DEPUTY POSTMASTER GENERAL

JOHN R. WARGO
VICE PRESIDENT, SERVICE AND MARKET DEVELOPMENT

SUBJECT: 	 Audit Report- National Postal Forum
           (Report Number EM-AR-02-011)

This report presents the results of our audit of the National Postal Forum (Project
Number 00NA003MK000). The objective of this self-initiated review was to determine
whether the Postal Service achieved its objectives to strengthen customer relations,
train mailers, and generate sales revenue. We also wanted to identify financial
payments and other support provided by the Postal Service to the National Postal
Forum and the basis for providing the support; and determine whether the National
Postal Forum generated sufficient revenues to cover its operational expenses.

The review disclosed information that indicated the Postal Service objectives for
attending the Postal Forum were achieved. For instance, customer responses to
surveys indicated that the Postal Service met its objective of improving customer
relationships. In addition, the Postal Service was successful in training business
mailers and generating average new sales revenue of $1.5 million for the four Postal
Forums held between the fall of 1999 and spring 2001. Postal Service officials believed
these accomplishments offset the average $2.5 million cost of attending the Postal
Forum. This report has two recommendations. Management agreed with our
recommendations and has initiatives in progress, completed, or planned addressing the
recommendations. Management’s comments and our evaluation of these comments
are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Larry Chisley,
director, Accepting and Processing, at (703) 248-2100 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: 	John E. Potter
    Anita J. Bizzotto
    Patrick R. Donahoe
    Susan M. Duchek
National Postal Forum                                                 EM-AR-02-011



                             TABLE OF CONTENTS

Executive Summary
                                                         i

Part I

Introduction
                                                             1

   Background                                                             1

   Objectives, Scope, and Methodology                                     1

   Prior Audit Coverage                                                   2


Part II

Audit Results                                                             3


   Benefits of Attending the National Postal Forum                        3

        Customer Relations                                                3

        Training Mailers                                                  4

        Revenue Generated From Postal Forums                              5

        Cost of Attending Postal Forums                                   5

   Recommendation                                                         6

   Management’s Comments                                                  6

   Evaluation of Management’s Comments                                    6


   National Postal Forum Revenues                                         7


   Public Perception                                                      8

   Recommendation                                                         8

   Management’s Comments                                                  9

   Evaluation of Management’s Comments                                    9


Appendix A. Postal Service Expenses at National Postal Forum             10

Appendix B. Comparison of National Postal Forum Attendance               13

Appendix C. Comparison of National Postal Forum Registration Fee to      15

            Other Conferences

Appendix D. National Postal Forum Revenues and Expenses                  16

Appendix E. Methodology                                                  17

Appendix F. Management’s Comments                                        19





                                  Restricted Information
National Postal Forum	                                                     EM-AR-02-011



                           EXECUTIVE SUMMARY
 Introduction	           The National Postal Forum is a not-for-profit corporation
                         established for the sole purpose of supporting the Postal
                         Service. Consistent with that mission, the National Postal
                         Forum partners with the Postal Service to hold semiannual
                         combined training conferences and trade shows for the
                         Postal Service and its’ customers, also named the National
                         Postal Forum. For purposes of this report the term Postal
                         Forum will be used to refer to the conferences and trade
                         shows.

                         The purpose of our self-initiated audit was to determine
                         whether the Postal Service achieved its objectives for
                         attending the Postal Forum, which included, strengthening
                         customer relations, training mailers, and generating sales
                         revenue. We also sought to identify financial payments and
                         other support provided by the Postal Service to the National
                         Postal Forum; and to determine whether the Postal Forum
                         generated sufficient revenues to cover its operational
                         expenses.

 Results in Brief	       We identified information that indicated that the Postal
                         Service achieved its objectives of attending the Postal
                         Forums. For instance, customer satisfaction surveys
                         indicated that customer relationships were strengthened.
                         More specifically, the majority of survey respondents were
                         satisfied with the Postal Forum and considered networking
                         the most important aspect of the Postal Forum.

                         In addition, the Postal Service was effective in training
                         business mailers. Approximately 11,000 mailers attended
                         the Postal Service business sessions during the spring 2001
                         Postal Forum, including representatives from over 100 of
                         the largest Postal Service accounts, which accounted for
                         over $7 billion in revenue in fiscal year (FY) 2000. Mailers
                         indicated the educational content was also an important
                         factor in determining whether they attended the Postal
                         Forum.

                         Furthermore, the Postal Service averaged about $1.5 million
                         in new sales revenue for the four Postal Forums held
                         between fall 1999 and spring 2001. During each Postal
                         Forum, Postal Service officials met with current and
                         prospective customers to discuss Postal Service products



                                            i
                                 Restricted Information
National Postal Forum                                                        EM-AR-02-011



                        and customer concerns. Customers indicated that the
                        presence of key Postal Service officials facilitated their
                        purchase of additional Postal Service products.

                        Costs associated with attending the Postal Forums
                        averaged about $2.5 million for the four Postal Forums from
                        fall 1999 through spring 2001. These costs included
                        registration fees for Postal Service employees attending the
                        Postal Forum, exhibit space fees for the Postal Service
                        exhibit and transportation costs.

                        The Postal Forum generated sufficient revenues -- an
                        average of $6.4 million per Postal Forum -- to cover average
                        operational expenses of $6.1 million during FYs 1998, 1999,
                        and 2000. Postal Service fees represented about
                        19 percent of average Postal Forum revenues. We noted
                        that the Postal Service had considerable influence over the
                        format of the Postal Forums and the companies that exhibit
                        products. In addition, several Postal Service employees
                        performed operational support duties during the
                        spring 2000, fall 2000, and spring 2001 Postal Forums.
                        While this influence and support may give the impression
                        that the National Postal Forum is not independent of the
                        Postal Service, this relationship is consistent with the
                        Internal Revenue Service guidelines. In the past several
                        years, the Postal Service has focused on reducing its costs
                        associated with attending the Postal Forums.

 Summary of             We recommended management continue to emphasize
 Recommendations        prudent spending at Postal Forums and discontinue having
                        Postal Service employees work on-site at Postal Forum
                        operations.

 Summary of             Management agreed with our recommendations and stated
 Management’s           that an attendance policy for the San Diego Postal Forum
 Comments               was issued February 2002, emphasizing the need to finance
                        all major elements of the Postal Forum through the National
                        Postal Forum. This message will be reemphasized during
                        August 2002 in the attendance policy for the Postal Forum
                        scheduled in Boston, Massachusetts. In addition,
                        management stated that nearly all on-site operational
                        support has been shifted to the National Postal Forum and
                        the remaining operational support will be transferred prior to
                        the start of the Postal Forum in Boston, Massachusetts.




                                           ii
                                Restricted Information
National Postal Forum                                                     EM-AR-02-011




                         Management’s comment’s, in their entirety, are included in
                         Appendix F of this report.

 Overall Evaluation of   Management’s planned actions are responsive and meet
 Management’s            the intent of our recommendations.
 Comments




                                           iii
                                 Restricted Information
National Postal Forum                                                     EM-AR-02-011



                               INTRODUCTION
 Background             The National Postal Forum is a not-for-profit educational
                        corporation founded in 1968 by major Postal Service
                        customers and the Postal Service. The National Postal
                        Forum is a separate legal entity from the Postal Service and
                        is governed by a seven-member Board of Directors. These
                        board members were paid an average of about $19,000 in
                        2000. The Postal Forum is headquartered in Fairfax,
                        Virginia, and employs about 14 full-time staff members.

                        The Postal Forum's primary tax-exempt purpose is to assist
                        the Postal Service in educating business mailers on the
                        efficient use of products and services offered by the Postal
                        Service.

                        To accomplish that purpose, the National Postal Forum
                        holds combined educational conferences and trade shows,
                        also named National Postal Forum. For purposes of this
                        report the term Postal Forum will be used to refer to the
                        conference and trade shows. Since 1968, the Postal Forum
                        has undergone several changes, such as, being held
                        annually, biannually, and as a regionally focused meeting
                        up to five times per year. Starting in 1990, the Postal Forum
                        has been held semiannually as a national meeting at
                        various locations throughout the United States. Also in
                        1990, the Postal Service entered into a Memorandum of
                        Understanding with the National Postal Forum that generally
                        identifies the Postal Forum expenses to be paid by the
                        Postal Service and the National Postal Forum. Annual
                        negotiations regarding the actual expenses to be paid by
                        the National Postal Forum and the Postal Service are
                        included in an addendum to the memorandum each year.

 Objectives, Scope,     Our audit objectives were to:
 and Methodology
                           1. Determine whether the Postal Service achieved its
                              objectives of strengthening customer relations,
                              training business mailers, and generating new sales
                              revenue.

                           2. Determine Postal Service expenses, financial
                              payments, and other support provided to the
                              National Postal Forum and the basis for providing
                              the support.



                                           1
                                Restricted Information
National Postal Forum	                                                       EM-AR-02-011




                            3.	 Determine whether the Postal Forum has generated
                                sufficient revenues to cover its operational
                                expenses.

                         To accomplish our audit objectives, we reviewed the
                         spring 2000, fall 2000, and spring 2001 Postal Forums; and
                         interviewed key Postal Service personnel including the
                         National Postal Forum program manager, budget
                         coordinator, and exhibit coordinator. Additional details
                         regarding our audit methodology are included in
                         Appendix E.

                         This audit was conducted from June 2000 through
                         April 2002 in accordance with generally accepted
                         government auditing standards and included such tests of
                         internal controls as we considered necessary under the
                         circumstances. We discussed our conclusions and
                         observations with appropriate management officials and
                         included their comments, where appropriate.

 Prior Audit Coverage    We did not identify any prior audits or reviews related to the
                         objectives of this audit.




                                            2
                                 Restricted Information
National Postal Forum                                                                    EM-AR-02-011



                                             AUDIT RESULTS
    Benefits of Attending           The audit disclosed direct evidence or indications that the
    the National Postal             Postal Service achieved its objectives for attending the
    Forum                           Postal Forum. Postal Service objectives included,
                                    strengthening customer relations, training mailers, and
                                    generating sales revenue. While we were unable to identify
                                    a measurement system used by the Postal Service to
                                    directly determine whether customer relationships improved
                                    at the Postal Forums, customer responses to surveys
                                    indicated that relationships improved.

                                    We found that the Postal Service had been successful in
                                    achieving its objective of training business mailers. Also,
                                    the Postal Service achieved its objective of generating new
                                    sales revenue at Postal Forums an average of $1.5 million
                                    for the four Postal Forums held from fall 1999 through
                                    spring 2001. Postal Service expenses associated with
                                    attending the Postal Forum averaged $2.5 million per Postal
                                    Forum and were primarily associated with registration,
                                    exhibit space, and transportation.

                                    Furthermore, we determined that the National Postal Forum
                                    generated enough revenue to cover its cost for fiscal years
                                    (FY) 1998 and 1999. However, we noted that there may be
                                    a public perception the Postal Forum was a Postal Service
                                    financed event.

    Customer Relations              We found information that indicated the Postal Service
                                    achieved its objective to strengthen customer relations.

                                    For instance, over 1,700 commercial Postal Service
                                    customers attended the March 2001 Postal Forum,
                                    including representatives from over 100 of the largest Postal
                                    Service accounts valued at over $7 billion in FY 2000. Also,
                                    Postal Service surveys1 indicated that relationships
                                    improved in that customers stated they considered
                                    networking an important aspect of the Postal Forum.

                                    More specifically, research data showed that customers
                                    wanted to meet with account representatives, district
                                    managers, bulk mail center managers, program managers,
                                    and Postal Service officers. Therefore, at each Postal

1
    For the April 2001 research, telephone surveys were conducted with 700 businesses.



                                                          3
                                               Restricted Information
National Postal Forum	                                                       EM-AR-02-011



                         Forum, the Postal Service set up consultation centers where
                         customers could meet with Postal Service experts and
                         managers to discuss their problems and to have their
                         questions answered. In addition, approximately 300 to
                         500 Postal Service sales and area operations employees
                         attending the Postal Forums conducted numerous customer
                         relations activities that included planning, organizing, and
                         participating in customer sales and marketing meetings.

                         While we believe that Postal Service officials interacting with
                         their customers at the Postal Forum impacts customer
                         relations, there was no system in place to directly assess
                         whether customer relations improved.

 Training Mailers	       The Postal Service achieved its objective of training
                         business mailers.

                         During the spring 2001 Postal Forum, the Postal Service
                         offered 102 business sessions. Business sessions were
                         designed to train mailers on new and existing Postal Service
                         products and services and how these new products and
                         services could help mailers to succeed in their business.

                         The sessions were organized in five tracks that reflected the
                         way customers do business with the Postal Service:

                            •   Distribution and Fulfillment

                            •   Mail Center Operations

                            •   Managing Mail Preparation and Acceptance

                            •   Postal Rates and Policy

                            •   Winning New Business

                         Nineteen Postal Service employees, including Postal
                         Service officers and senior executives, presented
                         eight business builder sessions at the spring 2001 Postal
                         Forum. The business builder sessions included discussions
                         by Postal Service officers and their industry counterparts on
                         operations, Postal Service policy, eCommerce, the
                         Inspection Service, and technology. Approximately
                         11,000 people attended the business builder and business
                         sessions. Customer questionnaires completed at the Postal



                                            4
                                 Restricted Information
National Postal Forum                                                      EM-AR-02-011



                        Forum indicated that attendees liked the training sessions
                        and considered the educational content an important factor
                        in attending the Postal Forum.

 Revenue Generated      The Postal Service achieved its objective of generating new
 From Postal Forums     revenue. Postal Service averaged about $1.5 million in new
                        sales revenue for the four Postal Forums held between fall
                        1999 and spring 2001. During each Postal Forum, Postal
                        Service officials met with current and prospective customers
                        to discuss Postal Service products and customer concerns.
                        These meetings provided Postal Service officials with an
                        opportunity to meet individually with customers to promote
                        Postal Service products and services. Customers indicated
                        that the presence of key Postal Service officials facilitated
                        their purchase of additional Postal Service products.

 Cost of Attending      Postal Service expenses associated with attending the
 Postal Forums          Postal Forum averaged about $2.5 million during 2000 and
                        spring 2001. Expenses included registration and exhibit
                        fees for Postal Service employees attending the Postal
                        Forum and the Postal Service exhibit. These fees averaged
                        about $600,000 per Postal Forum and were paid to the
                        National Postal Forum, representing about 19 percent of
                        total fees paid to the National Postal Forum. The Postal
                        Service spends approximately $1,000,000 per Postal Forum
                        on travel costs for employees to attend and another
                        $900,000 for miscellaneous costs. See Appendix A for
                        details of costs.

                        Although we considered most Postal Service expenses to
                        be reasonable, we found several instances of expenses we
                        considered questionable. For example, area and district
                        offices paid the $115 registration fee for nine Postal Service
                        employees and customers at the Postal Forum golf
                        tournament during the spring 2001 Postal Forum, a total of
                        $1,035. In addition, we found an instance where area
                        officials spent $2,986, including $923 for alcoholic
                        beverages, to hold a staff meeting for 28 area employees.
                        Although these expenditures were not prohibited, they
                        appeared to be inappropriate and could result in adverse
                        publicity.




                                           5
                                Restricted Information
National Postal Forum                                                   EM-AR-02-011




 Recommendation         We recommend the deputy postmaster general:

                           1. Continue to emphasize the need for prudent
                              spending when issuing the Postal Forum attendance
                              policy.

 Management’s           Management agreed with the recommendation. They
 Comments               stated that the attendance policy is issued prior to each
                        Postal Forum event and is designed to ensure that Postal
                        Service attendance is appropriate for the Postal Service’s
                        need to implement the event, present customer training,
                        education programs, and is proportional to the level of
                        customer attendance. The attendance policy for the
                        San Diego Postal Forum, issued on February 15, 2002,
                        reemphasized the need to finance all major elements of the
                        Postal Forum, including customer receptions, through the
                        National Postal Forum. A message was issued to Postal
                        Service officers on February 15, 2002, stating that Postal
                        Service employees who participate in Postal Forum golf
                        tournaments are responsible for paying tournament fees.
                        These messages will be reemphasized in the attendance
                        policy statement for the Boston Postal Forum, to be issued
                        in August 2002, and approximately 60 days prior to each
                        future Postal Forum.

 Evaluation of          Management’s planned actions are responsive and meet
 Management’s           the intent of our recommendation.
 Comments




                                           6
                                Restricted Information
National Postal Forum                                                                   EM-AR-02-011




    National Postal                The National Postal Forum’s FY 1998, 1999, and 2000 tax
    Forum Revenues                 returns2 indicated that they generated sufficient revenues to
                                   cover its operational expenses. Revenues used to pay
                                   administrative expenses and salaries were within
                                   acceptable levels. Approximately 23 percent of National
                                   Postal Forum revenues were used to pay administrative
                                   expenses and salaries during 1998. We benchmarked
                                   administrative expenses and salaries as a percentage of
                                   revenues for four nonprofit organizations in the Washington,
                                   D.C. area. Expenses and salaries ranged from 16 to
                                   27 percent of revenues. Appendix D summarizes National
                                   Postal Forum revenues and expenses for 1998, 1999, and
                                   2000.




2
    Internal Revenue Service Form 990, Return of Organization Exempt From Income Tax.



                                                         7
                                              Restricted Information
National Postal Forum	                                                    EM-AR-02-011




 Public Perception	      Although the National Postal Forum is a separate legal
                         entity from the Postal Service, we noted that there may be
                         an appearance that the Postal Service was not completely
                         independent of the National Postal Forum.

                         For instance, the Postal Service is the single largest
                         organization at Postal Forums sending over 500 employees
                         to each Postal Forum. This represents about 1-in-8
                         participants at each Postal Forum. In addition, the Postal
                         Service had exclusive control over the Postal Forum
                         program and did not allow Postal Service competitors to
                         participate at the Postal Forums. Additionally, the Postal
                         Service provided up to six staff members to support speaker
                         registration, message center, and mail service at each
                         Postal Forum. The National Postal Forum pays for travel
                         and lodging expenses for these employees.

                         We noted that two of the current board members are former
                         Postal Service officers and one elected board member is a
                         former deputy postmaster general and Postal Service
                         governor. Four of the seven board members are elected,
                         two are appointed by the Postal Service postmaster
                         general, and the seventh is a full-time executive director.
                         However, our research indicated that the control by the
                         Postal Service evidenced by the appointment of board
                         members by the postmaster general complies with Internal
                         Revenue Service guidelines for nonprofit organizations.

                         In the past several years the Postal Service has focused on
                         reducing attendance and cost. Overall, Postal Service
                         employees only represented 13 percent of the total
                         attendance at the three Postal Forums. According to Postal
                         Service guidelines, the total number of Postal Service
                         employees should not exceed 20 percent of overall
                         customer attendance. In addition, the Postal Service­
                         funded customer receptions were eliminated beginning with
                         the fall 2001 Postal Forum.

 Recommendation	         We recommend the vice president, Service and Market
                         Development:

                            2. Discontinue having Postal Service employees work
                               on-site at Postal Forum operations.




                                            8
                                 Restricted Information
National Postal Forum                                                     EM-AR-02-011




 Management’s           Management agreed with the recommendation. They
 Comments               stated that the Postal Service has previously shifted nearly
                        all the responsibility and expense related to Postal Forum
                        operations to the National Postal Forum corporation.
                        Management stated that three Postal Service employees
                        will support the San Diego Postal Forum during April 2002;
                        however, all remaining on-site operational support will be
                        transferred to the National Postal Forum corporation prior to
                        the Postal Forum scheduled for Boston, Massachusetts, in
                        September 2002.

 Evaluation of          Management’s planned actions are responsive and meet
 Management’s           the intent of our recommendation.
 Comments




                                           9
                                Restricted Information
National Postal Forum                                                                      EM-AR-02-011



                        APPENDIX A
     POSTAL SERVICE EXPENSES AT NATIONAL POSTAL FORUM

Postal Service expenses associated with attending the Postal Forum were about
$2.5 million for the spring 2000, fall 2000, and spring 2001 Postal Forums held in
Nashville, Tennessee; Anaheim, California; and Orlando, Florida. Travel expenses
account for about 38 percent of Postal Service expenses.

Table A-1 lists Postal Service expenses, actual and estimated, for the spring and
fall 2000 and spring 2001 Postal Forums.

                                  Table A-1. Postal Service Expenses

                  Expenses                Spring 2000        Fall 2000   Spring 2001

                  Actual
                   Registration Fees          $451,975       $363,660         $326,950
                   Exhibit Space Fees          217,305        215,110          234,710
                   Exhibit Contractor          494,868        422,000          586,216
                   Marketing                   122,243        188,592                0
                   Production                   92,967        115,850           52,657
                  Estimated
                   Travel                   *1,000,000      *1,000,000        **909,000
                   Receptions                 *150,000        **85,514         **97,287
                   Other                      *150,000        *150,000         *150,000

                  Total Expenses            $2,679,358     $2,540,726        $2,356,820

               * OIG estimates
               ** Actual expenses

Registration fee payments to the National Postal Forum for Postal Service employees
attending the Postal Forums averaged about $381,000 per Postal Forum, about
23 percent of total National Postal Forum registration fee revenues at the calendar
year 2000 and spring 2001 Postal Forums. Table A-2 shows total National Postal
Forum registration fee revenues and Postal Service registration fee payments to the
Postal Forum.

                                 Table A-2. Registration Fee Payments

                     Postal Forum                        Registration Fees
                                             Total        Postal Service      Percentage
                                          Registration      Payments           of Total

                Spring 2000 (Nashville)     $1,898,815       $451,975            24%
                Fall 2000 (Anaheim)          1,424,148        363,660            26%
                Spring 2001 (Orlando)        1,696,624        326,950            19%

                Average                     $1,673,196       $380,862            23%




                                                    10
                                          Restricted Information
National Postal Forum	                                                                  EM-AR-02-011



Postal Service exhibit space payments to the National Postal Forum averaged about
$222,000 at the spring and fall 2000 and spring 2001 Postal Forums. Postal Service
payments were about 15 percent of the total exhibit space revenues collected by the
National Postal Forum. Total exhibit space revenues collected by the Postal Forum
averaged about $1.5 million per Postal Forum. The Postal Service pays the prevailing
market rate for space required for the Postal Service exhibit. Table A-3 shows total
Postal Forum exhibit space revenues and Postal Service exhibit space payments to the
National Postal Forum.

                                   Table A-3. Exhibit Space Fees

                         Postal Forum                     Exhibit Space Fees
                                               All Exhibit     Postal      Percentage
                                                  Fees       Service Fee     of Fees

                     Spring 2000 (Nashville)   $1,444,650         $217,305   15%
                     Fall 2000 (Anaheim)        1,448,930          215,110   15%
                     Spring 2001 (Orlando)      1,543,320          234,710   15%

                     Average                   $1,478,967         $222,375   15%

The Postal Service paid $494,868 at the spring 2000 and $422,000 at the fall 2000
Postal Forums to store, maintain, transport, and to set up the large Postal Service
exhibit. The Postal Service paid the exhibit contractor $586,216 for the spring 2001
Postal Forum. The additional costs were for marketing and promotional efforts that
were previously done by Postal Service advertising agencies.

The National Postal Forum pays for all Postal Forum related advertising and
promotional expenses. However, the Postal Service incurs marketing expenses to
promote and advertise the Postal Service. Postal Service marketing expenses were
$122,243 at the spring 2000 Postal Forum and $188,592 at the fall 2000 Postal Forum.
The marketing expenses were for the:

    •	 Design and production of Postal Service advertisements in Postal Forum 

       program guides.


    •	 Design and messaging work for the Postal Service exhibit.

    •	 Print and video advertising promoting the Postal Service.

Beginning with spring 2001 Postal Forum, the marketing and promotion costs were
included in the exhibit contract.

The Postal Service reimbursed the National Postal Forum $208,817 for production
expenses at the spring and fall 2000 Postal Forums. As part of a Memorandum of
Understanding, the Postal Service hosts several general sessions and a customer



                                                   11
                                         Restricted Information
National Postal Forum                                                        EM-AR-02-011



recognition/awards dinner. The National Postal Forum pays for production expenses for
these events. In the Memorandum of Understanding, production costs were estimated
to be $1.1 million for the spring and fall 2000 Postal Forums. However, the Postal
Service requested additional production support at a cost of $92,967 at the spring 2000
Postal Forum to hire a professional host/moderator for three general sessions; and
$115,850 to expand video production of award winners and customers at the fall 2000
Postal Forum general sessions. At the spring 2001 Postal Forum, the Postal Service
reimbursed the National Postal Forum $52,657.

Travel expenses are the largest Postal Service expense at the Postal Forum. On
average, the Postal Service spends about $967,000 on Postal Forum travel expenses,
about 38 percent of total Postal Service expenses of $2.5 million. We estimated the
spring and fall 2000 Postal Forum travel expenses because Postal Service travelers
were not recording their travel under the correct general ledger account number.

However, under the new Postal Service Electronic Travel Voucher System, travel to the
Postal Forum is being recorded under the correct general ledger account number. For
the spring 2001 Postal Forum, we identified 670 travel payments totaling $909,000.

At each Postal Forum the Postal Service hosts a number of customer receptions.
These receptions provide operations and sales personnel an opportunity to meet and
talk with customers about customer issues and concerns. Prior to the fall 2000 Postal
Forum, each area sponsored separate customer receptions that cost the Postal Service
about $150,000. Beginning with the fall 2000 Postal Forum, the areas no longer hosted
customer receptions. Instead, the Postal Service sales group sponsored
four receptions, one for each regional sales area. At the fall 2000 Postal Forum, the
four receptions cost $85,514. At the spring 2001 Postal Forum, the four receptions cost
$97,287. Beginning with the fall 2001 Postal Forum, the Postal Service-funded
customer receptions have been eliminated.

Postal Service officials stated that only the four sales receptions have been eliminated.
Areas and districts may hold customer receptions at their discretion. At the spring 2001
Postal Forum, the areas and districts held 27 separate customer receptions/dinners at a
cost of $54,336. We included these expenses in the "other expenses" category below.

For the spring 2000, fall 2000, and spring 2001 Postal Forums, we estimated that the
Postal Service areas, districts, and headquarters agencies spent a combined
$150,000 at each Postal Forum on miscellaneous expenses like customer dinners, pins,
welcome kits, invitations, customer and employee awards, area suites and associated
food and beverages, and printing and publication expenses.




                                             12
                                   Restricted Information
National Postal Forum                                                                     EM-AR-02-011



                         APPENDIX B
      COMPARISON OF NATIONAL POSTAL FORUM ATTENDANCE

Postal Service attendance at the Postal Forum is declining. Approximately 1,079 Postal
Service employees attended the spring 2000 Postal Forum in Nashville, Tennessee;
866 employees attended the fall 2000 Postal Forum in Anaheim, California; and
743 employees attended the spring 2001 Postal Forum held in Orlando, Florida.

At each Postal Forum, an average of 371 Postal Service employees attend the Postal
Forum as session speakers, exhibit staff, security, public affairs, and communications
staff. Those support employees receive a complementary Postal Forum registration.
Additionally, an average of 525 employees attend the Postal Forum to support sales
and customer relations objectives. The Postal Service pays the registration fees for
those employees.

There are also a limited number of local Postal Service employees that purchase a
$25 one-day exhibit hall pass. At the spring 2001 Postal Forum, 65 Postal Service
employees purchased exhibit hall passes.

Table B-1 depicts attendance figures for the Nashville, Anaheim, and Orlando Postal
Forums.

                           Table B-1. Postal Service Attendance

      Postal Service Category                          Spring 2000       Fall 2000    Spring 2001

      Postal Service Paid Attendance:                             644           483            447

      Postal Service Support at Postal Forum
      (Nonpaid):
         Postal Service Speakers                           120            112             75
         Consultation Center Staff                          23              7              3
         Postal Service Staff                               52             55             51
         Postal Service Exhibit Staff                      179            142            125
         Postal Senior Executives                           61             67             42

      Total Postal Service Support at Postal
      Forum:                                                      435           383            296

      Total Postal Service Attendance                            1,079          866            743

      Total Attendance:                                          7,184      7,191           6,690

      Postal Service Attendance as a
      Percentage of Total Attendance:                             15%        12%               11%




                                                  13
                                        Restricted Information
National Postal Forum                                                        EM-AR-02-011



Prior to each Postal Forum the Postal Service chief operating officer issues attendance
guidelines that identify employees who are expected to attend, and employees that may
attend at the discretion of the area and headquarters vice presidents and certain
executives. Employees expected to attend typically include district managers, area and
district marketing managers, area Postal Forum coordinators, plant and transportation
managers, and sales account representatives.

Overall, Postal Service employees represented 13 percent of the total attendance at the
three Postal Forums. Additionally, Postal Service employees represented about
20 percent of Postal Service customer attendance. As a general guideline, the total
number of Postal Service employees attending at the discretion of Postal Service
executives should not exceed 20 percent of overall customer attendance. Customer
attendance is identified by the Postal Forum from registration data and forwarded to the
area and headquarters Postal Forum coordinators.




                                             14
                                   Restricted Information
National Postal Forum                                                      EM-AR-02-011



                             APPENDIX C
                COMPARISON OF NATIONAL POSTAL FORUM
               REGISTRATION FEE TO OTHER CONFERENCES

The $695 registration fee that individual Postal Service employees paid to attend the
spring and fall 2000 Postal Forums is comparable to registration fees at similar
tradeshows and conferences. Although each tradeshow and conference is unique, we
judgmentally selected five tradeshows and conferences that were similar in length and
also provided informational and educational presentations. As shown below, the
registration fee for those events ranged from $445 to $1,625.


   Conference                                              Number Days         Fee

   National Congress for Community Excellence                   3             $445
   Development
   MailCom 2000                                                 3               595
   National Postal Forum                                        3               695
   American Bankers Association Marketing                       3               995
   Conference
   ICE Internet Commerce Expo                                   3              995
   Call Center 2000                                             4             1625




                                            15
                                  Restricted Information
National Postal Forum                                                                          EM-AR-02-011



                             APPENDIX D
            NATIONAL POSTAL FORUM REVENUES AND EXPENSES

The National Postal Forum’s 1998, 1999, and 2000 tax returns3 indicated that they
generated sufficient revenues to cover their operational expenses. In 1998, the
National Postal Forum reported revenues of $6,050,589 and expenses of
$5,342,379 resulting in a $708,210 increase in net assets. The increase in net assets
combined with a $382,108 increase in the fair market value of investments, resulted in a
$1,090,318 increase in net assets for 1998.

In 1999, the National Postal Forum reported revenues of $6,347,138 and expenses of
$6,395,461 resulting in a $48,323 decrease in net assets. However, the decrease in net
assets was offset by a $392,346 increase in the fair market value of investments,
resulting in a $344,023 increase in net assets for 1999. Tax returns for calendar
year 2000 were not available at the time of our audit.

In 2000, the National Postal Forum reported revenues of $6,908,492 and expenses of
$6,573,086, resulting in a $335,406 increase in net assets. This increase in net assets
was partially offset by a fair market value decrease in investments of $209,311. This
results in a total net increase in assets of $126,095 for 2000.

Table D-1 summarizes National Postal Forum revenues and expenses for 1998, 1999,
and 2000.

                         Table D-1. National Postal Forum Revenues and Expenses

            National Postal Forum                   2000                1999            1998

            Revenues                               $6,908,492          $6,347,138       $6,050,589
            Expenses                                6,573,086           6,395,461        5,342,379
            Excess or (deficit)                     $335,406            $(48,323)        $708,210

            Beginning Fund Balance                 $4,440,804          $4,096,781       $3,006,463
            Increase FMV Investments4                (209,311             392,346          382,108
            Excess or (deficit)                       335,406             (48,323)         708,210
            Ending Fund Balance                    $4,566,899          $4,440,804       $4,096,781




3
    Internal Revenue Service Form 990, Return of Organization Exempt From Income Tax.
4
    Fair market value.



                                                        16
                                              Restricted Information
National Postal Forum                                                                            EM-AR-02-011




                               APPENDIX E. METHODOLOGY

To determine whether the Postal Service achieved their objectives of strengthening
customer relations, training business mailers, and generating new sales revenue, we
reviewed customer surveys results from the most recent Postal Forum, interviewed the
Postal Service employee responsible for the training and educational sessions and
reviewed Postal Service records on new sales generated at each Postal Forum. To
verify the accuracy of reported closed sales revenue, we examined the sales vouchers
and interviewed the sales specialists, and customers involved in the sales transactions.

To identify Postal Service expenses associated with attending the Postal Forum and
financial payments made to the National Postal Forum, we reviewed Postal Forum
expenses for FYs 1999, 2000, and 2001 through June 15, 2001. We interviewed key
personnel at the National Postal Forum and obtained data on Postal Service payments
made to the National Postal Forum. In addition, we interviewed and obtained expense
documentation from the area and Capital Metro Operations Postal Forum coordinators.
We also reviewed the most recent settlement of costs between the National Postal
Forum and the Postal Service.

To determine whether the National Postal Forum generated sufficient revenues to pay
their operational expenses, we reviewed the National Postal Forum Internal Revenue
Service Forms 990, Return of Organization Exempt From Income Tax, for FYs 1998,
1999, and 2000. We did not audit these statements since a public accounting firm
audits the Postal Forum financial statements and prepares its tax returns. We also
benchmarked the National Postal Forum’s administrative expenses and salaries as a
percentage of revenues to four nonprofit organizations in the Washington, D.C. area.5

To examine Postal Service attendance, we interviewed and obtained attendance
documentation from the area and Capital Metro Operations Postal Forum coordinators.
In addition, we interviewed key personnel at the National Postal Forum and examined
National Postal Forum data on Postal Service attendance at the Postal Forums. We did
not assess the reliability of that computer-processed data. We also reviewed the most
recent settlement of costs between the National Postal Forum and Postal Service.

To determine advertising agency expenses, and determine whether the advertising
agencies charged the Postal Service to process the exhibit contractor invoices, we
interviewed personnel from two Postal Service advertising agencies that worked on the
Postal Forum. Additionally, we reviewed advertising agency billing documentation to
include advertising production, labor, and travel charges.




5
 Organizations benchmarked included the National Humane Education Society, American Statistical Association,
National Defense Industrial Association, and National District Attorneys Association.



                                                      17
                                            Restricted Information
National Postal Forum                                                    EM-AR-02-011



To verify the accuracy of reported closed sales revenue, we examined the sales
vouchers and interviewed the sales specialists, account managers, and customers
involved in the sales transactions.

To examine training and education sessions conducted by the Postal Service, we
interviewed the business session coordinator and reviewed the Business Session
Rating and Attendance Analysis from the spring 2001 Postal Forum.




                                           18
                                 Restricted Information
National Postal Forum                                 EM-AR-02-011



                  APPENDIX F. MANAGEMENT’S COMMENTS




                                       19
                             Restricted Information
National Postal Forum                            EM-AR-02-011




                                  20
                        Restricted Information
